September 22, 2020
Via Electronic Filing
Hon. Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

Ludwikowski v. United States, No. 19-1293

Dear Mr. Harris:
Pursuant to the Court’s Order of March 19, 2020, Guidance Concerning Clerk’s Office
Operations of April 17, 2020, and Supreme Court Rule 30.4, Petitioner respectfully moves
the Court to delay the distribution of his Petition for writ of certiorari and the Brief in
Opposition to allow Petitioner to file a reply brief no later than October 30, 2020.
Assistant Solicitor General Nicole Frazer Reaves informed the undersigned that the
United States, Respondent here, consents to this delay.
Respondent’s Brief in Opposition was filed on September 16, 2020, slightly more
than five months after the Petition was filed on May 4, 2020.1 Absent the requested delay,
the Petition and Brief will be distributed on or after September 30, 2020, pursuant to
Supreme Court Rule 15.5.
Petitioner requires the additional time for several COVID-19-related reasons.
Counsel is a sole practitioner and has been working from home since March 2020; her sole
staff person, her paralegal, has also been working from home since then. The
complications of doing so have considerably increased the time required to carry out
counsel’s obligations to her clients. In addition, COVID-19 has required counsel to give
substantial time and attention to addressing the emergency needs of incarcerated clients at
risk of contracting COVID-19 in the prisons.

Respondent waived the right to respond, but on June 16, 2020 the Court directed it
to do so.
1

Hon. Scott S. Harris, Clerk
Supreme Court of the United States
September 22, 2020
p. 2
As a result of these and related complications, deadlines intended for mid-summer
in counsel’s U.S. Court of Appeals and other appellate matters have been pushed to the fall,
with several converging in September and October. Moreover, as backlogged court
operations slowly resume in other types of matters (e.g., grand jury and sentencing),
counsel is now handling matters that otherwise would have been completed in early-tomid-summer. Those matters also require more attention than in non-pandemic times,
given the need to plan and negotiate COVID-19 precautions.
The Court’s October 2020 Calendar suggests that absent the requested delay, this
paid matter would likely be conferenced on or after October 16, 2020. The requested delay
would suggest a conference date of November 13, 2020 or November 20, 2020. Counsel
respectfully submits that the requested delay is “reasonable under the circumstances,” as
provided in the Court’s March 19, 2020 Order.
Respectfully submitted,
/s/ Lisa A. Mathewson

Lisa A. Mathewson
LAM/hs
Cc:
Noel J. Francisco, Solicitor General (via email)
Nicole Frazer Reaves, Asst. Solicitor General (same)

